                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I03110065                                                                  Page 1 of 1



         The National Science Foundation, Office of Inspector General (NSFIOIG) received an allegation
         from a Program ~irector'regarding a Conflict of Interest (COI) issue involving panel review
         members. The Program Officer advised that several days after a panel review the complainant
         called and informed him that prior to the review another panel member3 had sent a letter
         requesting support for his home institutions proposal.

         The complainant confirmed that the information provided to NSFIOIG by the Program Director
         was accurate. However, the complainant was reluctant to cooperate with NSFIOIG. Following
         NSFIOIG's interview of an additional panel member and the subject panelist, a determination
         was made to close the case due to the complainant's unwillingness to cooperate with the
         investigation and the lack of evidence.

         Accordingly, this case is closed.




          1
              Footnote redacted
              Footnote redacted
              Footnote redacted




NSF OIG Form 2 (1 1/02)
